No. 21-51
In the

Supreme Court of the United States
Central Payment Co., LLC,
Petitioner,
v.
Custom Hair Designs by Sandy, LLC,
On Behalf of Itself and All Others
Similarly Situated, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eighth Circuit

BRIEF IN OPPOSITION
E. A dam Webb
Matthew C. Klase
Webb, Klase & Lemond, LLC
1900 The Exchange, S.E.,
Suite 480
Atlanta, GA 30339
(770) 444-9325

T yler W. Hudson
Counsel of Record
Eric D. Barton
A dam S. Davis
Melody R. Dickson
Wagstaff & Cartmell, LLP
4740 Grand Avenue, Suite 300
Kansas City, MO 64112
(816) 701-1100
thudson@wcllp.com
Counsel for Respondents

307444

A
(800) 274-3321 • (800) 359-6859

i
CORPORATE DISCLOSURE STATEMENT
Plaintiffs Custom Hair Designs by Sandy, LLC,
and Skip’s Precision Welding, LLC, are limited liability
companies. They have no parent corporations, and there
are no publicly held companies that own 10% or more of
their stock.

ii
TABLE OF CONTENTS
Page
CORPORATE DISCLOSURE STATEMENT . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . iv
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 4
I.

Improper fee increases . . . . . . . . . . . . . . . . . . . . . 6

II. Fees for nothing in return . . . . . . . . . . . . . . . . . . . 9
III. CPAY engaged in a single scheme to defraud. . 10
IV. Litigation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
I.

There is no circuit split; rather, various
circuit courts have reached different
c onc lu s ion s by apply i n g t he Ru le
23 standards to different sets of facts . . . . . . . . 13

II. There are multiple additional reasons that
this case is not ideal for consideration by
this Court, including that CPAY’s Petition
does not address the entire case, there
are no “material” contract differences,
and uniform law governs all contracts . . . . . . . .18

iii
Table of Contents
Page
A. The focus at trial will be on CPAY’s
common scheme, not on the actions
of any individual Plaintiff . . . . . . . . . . . . . . 20
B. Plaintiffs’ breach-of-contract claim
also is based on common evidence,
and thus the question presented
does not apply here . . . . . . . . . . . . . . . . . . . .24
C. CPAY has failed to identify any
contract “defenses” that would not
apply to the entire class if viable  . . . . . . . . 29
D. T his Cou r t should not accept a
contract case in the Rule 23 context
where, as here, all contracts are
governed by one state’s law . . . . . . . . . . . . . 30
III. CPAY’s attacks on the lower-court judges
who have decided this case are irrelevant
to the sole question presented  . . . . . . . . . . . . . . 31
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Allapattah Servs., Inc. v. Exxon Corp.,
333 F.3d 1248 (11th Cir. 2003), aff’d sub nom.
Exxon Mobil Corp. v. Allapattah Servs., Inc.,
545 U.S. 546 (2005)  . . . . . . . . . . . . . . . . . . . . . . . . .  15
Amgen, Inc. v.
Conn. Retirement Plans & Trust Funds,
133 S. Ct. 1184 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . 23
Avritt v. Reliastar Life Ins. Co.,
615 F.3d 1023 (8th Cir. 2010)  . . . . . . . . . . . . . . . . . . .  17
Bridge v. Phoenix Bond & Indemnity Co.,
553 U.S. 639 (2008) . . . . . . . . . . . . . . . . . . . . . . 3, 13, 20
Broussard v. Meineke Disc. Muffler Shops, Inc.,
155 F.3d 331 (4th Cir. 1998) . . . . . . . . . . . . . . . . . . . . 14
CGC Holding Co. v. Broad & Cassel,
773 F.3d 1076 (10th Cir. 2014)  . . . . . . . . . . . . . . . . . . 13
Ebert v. Gen. Mills, Inc.,
823 F.3d 472 (8th Cir. 2016) . . . . . . . . . . . . . . . . . . . .  17
Fed. Trade Comm’n v. Productive Mktg., Inc.,
136 F. Supp. 2d 1096 (C.D. Cal. 2001) . . . . . . . . . . . . . 4
Grey v. Hearst Communications, Inc.,
444 Fed. App’x 698 (4th Cir. Aug. 25, 2011) . . . . . . . 18

v
Cited Authorities
Page
Gunnells v. Healthplan Servs., Inc.,
348 F.3d 417 (4th Cir. 2003) . . . . . . . . . . . . . . . . . . . . 18
Halvorson v. Auto-Owners Ins. Co.,
718 F.3d 773 (8th Cir. 2013) . . . . . . . . . . . . . . . . . . . .  17
In re Am. Med. Sys.,
75 F.3d 1069 (6th Cir. 1996) . . . . . . . . . . . . . . . . . . . . 31
In re U.S. Foodservice Inc. Pricing Litig.,
729 F.3d 108 (2d Cir. 2013) . . . . . . . . . . . . . . . . . passim
Johnson v. Nextel Commc’ns Inc.,
780 F.3d 128 (2d Cir. 2015) . . . . . . . . . . . . . . . . . . . . . 30
Klay v. Humana, Inc.,
382 F.3d 1241 (11th Cir. 2004) . . . . . . . . . . . . . . . . . . 31
Knights of Columbus Council 3152 v.
KFS BD, Inc.,
791 N.W.2d 317 (Neb. 2010)  . . . . . . . . . . . . . . . . . . . . 20
Krell v. Prudential Ins. Co. of Am.,
148 F.3d 283 (3d Cir. 1998) . . . . . . . . . . . . . . . . . . . . . 31
Naylor Farms, Inc. v. Chaparral Energy, LLC,
923 F.3d 779 (10th Cir. 2019) . . . . . . . . . . . . . . . . . . . 16
Reyes v. Netdeposit, LLC,
802 F.3d 469 (3d Cir. 2015) . . . . . . . . . . . . . . . . . . . . . 20

vi
Cited Authorities
Page
Sacred Heart Health Sys., Inc. v.
Humana Military Healthcare Servs., Inc.,
601 F.3d 1159 (11th Cir. 2010) . . . . . . . . . . . . . . passim
Spanish Oaks, Inc. v. Hy-Vee, Inc.,
655 N.W.2d 390 (Neb. 2003) . . . . . . . . . . . . . . . . . . . . 21
Sprague v. Gen. Motors Corp.,
133 F.3d 388 (6th Cir. 1998) . . . . . . . . . . . . . . . . . 14, 26
Torres v. S.G.E. Mgmt., LLC,
838 F.3d 629 (5th Cir. 2016) . . . . . . . . . . . . . . . . . . . . 13
Tyson Foods, Inc. v. Bouapheakeo,
557 U.S. 442 (2016)  . . . . . . . . . . . . . . . . . . . . . 16, 23, 26
Wallace B. Roderick Revocable Living Tr. v.
XTO Energy, Inc.,
725 F.3d 1213 (10th Cir. 2013)  . . . . . . . . . . . . . . . 14, 26
Walsh v. Ford Motor Co.,
807 F.2d 1000 (D.C. Cir.1986)  . . . . . . . . . . . . . . . . . . 31
Wang v. Chinese Daily News, Inc.,
737 F.3d 538 (9th Cir. 2013) . . . . . . . . . . . . . . . . . . . . 18
Webb v. Exxon Mobil Corp.,
856 F.3d 1150 (8th Cir. 2017) . . . . . . . . . . . . . . . . . . .  17

vii
Cited Authorities
Page
Zehentbauer Fam. Land, LP v.
Chesapeake Expl., L.L.C.,
935 F.3d 496 (6th Cir. 2019) . . . . . . . . . . . . . . . . . . . .  17
Statutues and Other Authorities
7AA C. Wright, A. Miller, & M. Kane, Fed. Prac.
& Proc. § 1778 (3d ed. 2005) . . . . . . . . . . . . . . . . . . . . 16
Fed. R. Civ. P. 23 . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Fed. R. Civ. P. 23(b)(3) . . . . . . . . . . . . . . . . . . . . . . . . 16, 18
Sup. Ct. R. 14 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14

1
INTRODUCTION
Congress sanctioned the class-action device for cases
like this one. The brothers who ran Central Payment Co.
(“CPAY”), previously banned from an entire industry,
took tens of millions of dollars from thousands of small
businesses, pennies at a time. The District of Nebraska
properly certified a class of merchants defrauded by
CPAY, and the Eighth Circuit properly affirmed that
decision. Nothing about the case warrants this Court’s
attention.
CPAY is a sales organization that acts as a middleman. It
contracts with merchants on behalf of a payment processor
and a bank that provide the actual payment processing
services. This relationship allowed CPAY to raise rates
and invent new fees, with neither contractual authorization
from the merchant nor legitimate justification. Zach and
Matt Hyman (“the Hyman Brothers”) would devise ways
to take more of the merchants’ money, through what CPAY
euphemistically termed “pricing initiatives.”
CPAY operated a single scheme, though it devised
several ways to cheat its small-business customers.
CPAY’s Petition presents this case as merely a contract
dispute, but primarily Plaintiffs allege that CPAY violated
the Racketeer Influenced and Corrupt Organizations Act
(“RICO”). Plaintiffs also have claims under Nebraska law
for common-law fraud and breach of contract. Plaintiffs
allege that CPAY breached the duty of good faith
and fair dealing, and they allege that CPAY breached
express, uniform contract terms by raising rates with
no contractual authority. All of these claims derive from
CPAY’s systematic practices.

2
There are several reasons this Court should deny
the Petition. First and foremost, there is no circuit split.
Notably, CPAY has failed to identify competing legal
principles espoused by the Eighth Circuit and any other
circuit. No circuit requires contracts to be 100% identical
to affirm certification. Every circuit agrees that the
inquiry under Rule 23 focuses on whether the contracts
at issue are substantially similar in all material respects.
The Eighth Circuit does not treat contract-based
class actions differently from other circuits—in fact,
it has denied certification of several contract classes in
recent years. The differing results in this case and the
cases cited in the Petition represent nothing more than
the application of Rule 23’s standards to different sets
of facts. CPAY asserts that this case raises whether
a contract class may be certified despite material
differences in the contracts. But the Eighth Circuit did
no such thing. The Eighth Circuit determined that there
were no material differences in the contracts that were
relevant to Plaintiffs’ legal theories. Plaintiffs’ theories
rest on a centralized overbilling fraud scheme, and an
express breach of contract that rests on a uniform contract
provision in the terms and conditions. The certification
outcome would be the same in all circuits. See, e.g., In re
U.S. Foodservice Inc. Pricing Litig., 729 F.3d 108, 12122 (2d Cir. 2013). CPAY’s Petition fails to acknowledge
Plaintiffs’ actual legal theories.
Second, when Plaintiffs’ legal theories are properly
understood, this case does not present any issues of
interest for this Court. The Petition fails even to identify
any basis to address the RICO and fraud claims. Thus,
CPAY ignores most of Plaintiffs’ claims. As described

3
below, numerous circuits have endorsed RICO claims on
comparable facts, based on this Court’s decision in Bridge
v. Phoenix Bond & Indemnity Co., 553 U.S. 639 (2008).
The fraud claim, and the claim based on the duty of good
faith and fair dealing, parallel the RICO claim but are
governed by Nebraska law.
Even if this Court were inclined to review a case
involving material contract differences, this case does not
present any, as the lower courts properly held. Common
evidence predominates over individualized evidence once
the case is evaluated in the context of Plaintiffs’ claims.
Every merchant’s contract had two parts: the financial
details and the terms and conditions. CPAY’s agents
negotiated the financial terms with each merchant.
However, the terms and conditions were uniform, and
Plaintiffs’ claims are based on CPAY’s breach of those
uniform terms and its systematic practices. Only the bank
had the authority to raise the merchants’ fees, and CPAY
has admitted that it is not a bank. CPAY claims that it has
individualized “defenses” to Plaintiffs’ contract claims, yet
it fails to explain what they are. At most, CPAY contends
that its actions were authorized. But that is a common
issue based on the uniform terms and conditions, and
CPAY has the opportunity to file a motion for summary
judgment in the district court on or before October 12,
2021.
Finally, all of the contracts in this case are governed
by uniform law, specifically Nebraska law. This fact both
supports the certification decisions and provides another
reason to reject the Petition. If the Court at some point
accepts review of a Rule 23 decision involving contract
claims, it should choose a case involving contracts governed

4
by the laws of multiple states. That issue frequently arises
in this context, but it has not arisen here.
For these reasons and those laid out below, this Court
should deny the Petition.
STATEMENT OF THE CASE
In 2001, the Federal Trade Commission permanently
banned the Hyman Brothers from the telemarketing
industry, after they were caught debiting customers’
accounts without authorization. (JA0307-26,1 0333, 241828); see also Fed. Trade Comm’n v. Productive Mktg.,
Inc., 136 F. Supp. 2d 1096 (C.D. Cal. 2001). Needing a
new scheme, the Hyman Brothers formed CPAY in 2006.
CPAY acts as a “middleman,” marketing credit card
processing services to merchants. These businesses
enter into agreements with CPAY, a bank, and a credit
card processor. (JA0529 at 29:3-13.) CPAY targeted “local
businesses [and] small mom-and-pop shops” because, in
CPAY’s view, they “are not educated and never know what
they are paying.” (JA527 at 20:13-18, JA1088.)
New CPAY customers signed contracts with (1) a
short-form application and agreement, and (2) boilerplate
terms and conditions. The terms in the first part were
negotiated between the merchant and CPAY’s sales agent.
(JA0832-34.) CPAY kept this information in a central
database that tracked fees, sent out standard billing
invoices, and extracted all merchant payments in the same
way. (JA0531 at 36:20-37:8; JA0567 at 178:19-179:11.) The
1. “JA” refers to the Joint Appendix filed in the Eighth
Circuit.

5
terms and conditions were uniform and did not materially
change during the class period, as CPAY’s corporate
representative, Tommy Chang, admitted. (JA0543 at
83:22-84:5.) The terms and conditions in every merchant
agreement dictated that the “BANK must pre-approve all
FEES,” and that “the AGREEMENT may not be amended
without BANK’s express written consent.” (PL-ADD.14, 2
JA0640 at § 13.20.) The “BANK,” at all relevant times, was
First National Bank of Omaha (“FNBO”). (JA0529-30 at
22:5-8, 29:3-30:12.) CPAY is not a bank. (JA0528 at 22:58.) The payment processor was TSYS Merchant Solutions
(“TMS”). (JA0528 at 23:8-13.)
With control of the billing process, CPAY’s leaders
created opportunities to bilk money from merchants. Mr.
Chang described these actions as “pricing initiatives.”
(JA0558 at 143:1-144:15.) When questioned as to when
“pricing initiatives” would be instituted, Mr. Chang
responded: “I mean, it would be based off of Matt or Zach’s
… collective decision as far as any sort of business need,
yeah.” (JA0588 at 263:13-17.) In making decisions about
rate increases, CPAY did not consult with TMS or the
bank. (JA0530 at 33:5-22.)
As laid out below, CPAY’s scheme manifested itself
in two ways, broadly speaking. CPAY raised existing fees
without either contractual authorization or any legitimate
explanation in the billing statements sent to all merchants.
CPAY also collected two fees that it invented, and for which
it provided nothing in return. CPAY sent deceptive notices
to customers suggesting, falsely, that market conditions
necessitated the fees.
2. “PL-ADD” refers to the Addendum that Plaintiffs filed
in the Eighth Circuit.

6
I.

Improper fee increases

Because only the BANK could raise fees, CPAY had
no right to raise fees. (PL-ADD.14, JA0640 at § 13.20; see
also Pet. App’x at 45-50 (rejecting summary judgment on
breach-of-contract claim based in part on argument that
CPAY did not have the right to change fees)). But CPAY did
it anyway. CPAY’s fee increases took three forms: raising
interchange rates (also known as credit card “discount
rates”), shifting certain transactions to higher pricing
tiers, and inventing a new fee.
The most straight-forward fee increase occurred
several times, when CPAY universally raised the credit
card “interchange” rates that merchants pay with each
purchase. (JA0488.) Per the uniform terms and conditions,
the BANK had to notify merchants in writing before
imposing any increases to interchange fees. (JA0635 at
§ 3.2.) CPAY’s agreement with FNBO similarly dictates
that the bank controls all fees; CPAY cannot unilaterally
add fees. (JA1260 at §5.6.) Throughout the class period,
CPAY raised these interchange rates without FNBO’s
involvement. (JA0530 at 33:5-22.) Upon raising these
fees, CPAY sent standard notices in billing statements,
falsely suggesting that CPAY was responding to market
conditions. (See JA1899-1902.) Some examples:
March 2015 - As a response to recent
modifications made by industry card brands
affecting interchange rates, you will see a
change to unregulated offline debit processing
volume to the Rate 3 qualification as well as an
additional 0.06% increase to all qualification
tiers.

7
February 2016 - In response to upcoming
modifications made by industry card brands
to interchange rates, merchants boarded prior
to January 1st, 2016 will see an eight basis
point increase to their gross processing volume
beginning April 1st, 2016.
Janua r y 2017 - In response to recent
modifications made by industry card brands
to interchange rates, effective March 1, 2017
there will be a four basis point increase on all
gross card brand processing volume.
(JA1899-1902 (emphasis added); see also PL-ADD.04,
JA1763.)
CPAY also raised fees through a process called tier
shifting. Some of CPAY’s customers were on a tiered
pricing system, meaning that different categories of
transactions had different interchange rates. (JA0572 at
199:1-201:4.) CPAY fully controlled the tier to which each
category of transaction was assigned. (JA0574 at 207:8-13.)
For instance, in 2015 CPAY moved all “unregulated debit”
transactions to Tier 3, thereby increasing the interchange
rate on those transactions without changing the rate for
any particular tier. (JA1902, JA924-27). True to form,
CPAY sent a uniform and deceptive notice to merchants:
As a response to recent modifications made by
industry card brands affecting interchange
rates, you will see a change to unregulated
offline debit processing volume to the Rate 3
qualification … .

8
(JA1902 (emphasis added).)3
CPAY also fraudulently raised merchants’ rates by
inventing a new fee “out of pure imagination.” (JA0445 at
¶ 65.) One 2014 strategy e-mail from Zach Hyman shows
how this fee came to be, and it also highlights the Hyman
Brothers’ larger scheme. Zach Hyman wrote:
We have worked with IT to charge a flat 4 basis
point charge on [the] entire portfolio, charged
in ‘other fees’ and described something like:
TSYSNF (TSYS Network Fees). This would
not be shared with the sales agents thus
CPAY would gain 4 basis points on roughly
$500,000,000 in processing ($200,000). Perhaps
we can budget on $180,000 assuming a few
issues arise with merchants/agents.
(PL-ADD.10, JA0768.) CPAY then imposed this new fee.
One agent noticed the fee, causing Zach Hyman to write
internally: “How can he see TSYS NF???? It’s suppose [sic]
to be hidden in ‘other fees.’” (JA0777.) Mr. Chang advised
not to change the fee name, as it would suggest that CPAY
had something to hide. Zach Hyman responded: “We do
tho.” (PL-ADD.11-12, JA0779-80.)
The same strategy e-mail demonstrates how these fee
increases were part of a uniform scheme. Zach Hyman
identified “opportunities for future increases” in the next
year—demonstrating that CPAY was not reacting to
3. In addition to this tier shift, CPAY also raised the rates
on every tier. There were slight variations in the amount of these
increases, but every merchant got the same “justification.” (Id.)

9
market forces. (PL-ADD.10, JA0768.) He listed seven ways
that CPAY could impose small charges on a large portfolio
of customers to increase CPAY’s profits. (Id.) One of those
“opportunities” was the tier shift explained above. Zach
Hyman wrote that CPAY could profit “$275,000 monthly
(would be shared with agents)” by “[d]owngrading non
regulated debit on tiered accounts.” (Id.)
II. Fees for nothing in return
Plaintiffs also allege that two fees were fraudulent
because CPAY did not explain that it invented these fees,
or that customers received nothing in return for paying
them. As noted, Zach Hyman invented one of those fees in
2014. Initially, CPAY simply billed the fee, sending out its
usually uniform, cryptic, billing notices. (See JA1903-06.)
Eventually, CPAY added this “TSSNF” fee to contracts
with new merchants, starting in April 2016. Still, CPAY
provided no information about how this fee came to be—
i.e., the Hyman brothers made it up—or what merchants
receive for paying it—absolutely nothing. The contracts
simply listed the TSSNF Fee among those fees to be
assessed “at Central Payment Rates.” (JA1906.)
The other fee that is part of CPAY’s fraudulent
scheme is the “PCI Noncompliance Fee.” CPAY charged
this throughout the class period, charging merchants
if they did not comply with data protection standards
adopted by an industry panel. (JA1207 at § 43(d).) When
asked what services a merchant receives for paying the
PCI Noncompliance Fee, Mr. Chang replied: “there is no
service that is being offered.” (JA0586 at 254:13-20.) The
fee is “all markup” and offsets “no cost” for CPAY. (JA0587
at 259:10-19.) When an agent asked Matt Hyman to explain

10
how the fee related to data security or industry services,
he replied: “I have NO documentation to support these
cost [sic].” (JA0827.) The fee was purely a sham.
III. CPAY engaged in a single scheme to defraud.
All of these “pricing initiatives” were connected by a
single scheme. If one idea for taking merchants’ money
was untenable, CPAY would find another. For instance,
when Matt Hyman expressed concern about increasing the
PCI Noncompliance Fee, shortly before the brothers sold
the company, Zach Hyman responded: “Grab your BALLS
SON. Unreal. I want a dam [sic] going away present,
and TSYS is asking for it!” Matt Hyman responded
that, instead of increasing the PCI annual fee, CPAY
should “introduce a new fee or increase pricing on new
merchants???!!!! LETS DO IT!!!!” (PL-ADD.13, JA0753.)
There is no record evidence that any of the challenged
“pricing initiatives” correlated to an increase in interchange
rates or to any other authorized event. Under the veil of
legitimate pass-through fees, CPAY camouflaged the true
nature of its pricing initiatives: CPAY’s “business need[s].”
(JA0588 at 263:13-17.) Then, CPAY extracted these fees
from merchants’ bank accounts, often before merchants
even received their monthly statements. (JA0531-32 at
34:7-10, 39:17-21.)
This scheme was effective because the amounts
that CPAY snatched from merchants were relatively
small. For instance, the two named Plaintiffs—Custom
Hair Designs by Sandy (“Sandy”) and Skip’s Precision
Welding (“Skip’s”)—suffered damages of $158.73 and
$63.85, respectively, through CPAY’s pricing initiatives.

11
(JA0800-01 at ¶¶ 34-36.) In the aggregate, however,
CPAY extracted huge sums from its merchant customers.
More than 200,000 small businesses fell victim to CPAY’s
scheme. (Pet. App’x at 16.) Addressing less than the full
class period because not all data was then available,
Plaintiffs’ damages expert calculated that class members
paid over $128 million in improper rate increases and fees
from 2012 to 2018. (See JA0798-99, ¶¶ 22-29; Pet. App’x
at 18.)4 Thus, the average total loss per merchant is likely
between $500 and $1,000.
CPAY presented no evidence that individual merchants
received materially different descriptions of these fees
or fee increases. CPAY also presented no evidence that
CPAY was authorized under the merchant agreement to
make these increases, or any evidence that CPAY had a
legitimate justification for any increase. Nor did CPAY
present evidence that any merchants understood that
they were receiving nothing in return for the fees, or that
the fees and rate increases were “business decisions” to
increase CPAY’s profits.
The large majority of the challenged fees were
extracted months after the application and agreement
were executed. CPAY did not raise rates on new merchants
until after they had been on board for at least four months
(JA0568 at 184:13-17)—further demonstrating that CPAY
was operating a calculated scheme, not responding to
market conditions. These increases occurred through
uniform billing-statement messages that provided the
same false justifications to all affected merchants for
4. CPAY’s expert does not dispute this calculation. (JA041617 at 26:1-27:7.)

12
every challenged rate increase. (See, e.g., PL-ADD.05-08,
JA1903-06; JA1763; see also PL-ADD.02, JA1766; PLADD.04, JA1763.)
IV. Litigation
Initially, Plaintiffs filed their putative class action as
a breach-of-contract case. (JA0019, JA0052.) But after
discovery revealed the illicit scheme conducted by the
Hyman Brothers and CPAY, through CPAY’s agents,
Plaintiffs filed an amended complaint in 2018, alleging
civil RICO claims under federal law and fraudulent
concealment under Nebraska law. (JA0059, JA0117,
JA0125.) Eventually, Plaintiffs moved to certify a class
action, while CPAY moved for summary judgment and
moved to strike the expert report of Plaintiffs’ liability
expert, Dr. Karl Borden. In a lengthy order, the district
court certified the class, denied CPAY’s summary
judgment motion, and denied the motion to strike Dr.
Borden. (See Pet. App’x at 15-56.) After permitting an
interlocutory appeal under Rule 23(f), the Eighth Circuit
affirmed class certification. (Id. at 14.) The court held that
“[c]ommon questions and common answers predominate
here,” because “all claims deal with either a common
scheme of fraud or a term common to all contracts with
CPAY.” (Id. at 6.)
ARGUMENT
This Court should deny the Petition for Certiorari
because CPAY has not identified a legitimate circuit split,
and because there are multiple reasons why this case
presents no issues that should interest this Court.

13
I.

There is no circuit split; rather, various circuit
courts have reached different conclusions by
applying the Rule 23 standards to different sets of
facts.

The Eighth Circuit did not create a “circuit split”
by affirming class certification in this case. In claiming
otherwise, CPAY fails to identify a statement of law in the
Eighth Circuit’s decision that conflicts with a statement
of law from any other circuit. Rather, CPAY attempts to
manufacture a circuit split from courts reaching different
conclusions from different sets of facts. CPAY’s argument
also ignores Plaintiffs’ claims for RICO and fraud.
Plaintiffs’ case centers on their civil RICO claim,
alleging that CPAY, the Hyman Brothers, TMS, and
CPAY’s agents participated in a scheme to defraud the
class of merchants. (See Pet. App’x at 51-52.) The district
court certified the RICO claim (with all claims) and denied
CPAY’s summary judgment motion. (Id. at 31-34, 51-52.)
The Eighth Circuit affirmed certification of the RICO
claim. (Id. at 7-9.) CPAY’s Petition largely ignores the
RICO claim—it is mentioned once, in passing (Pet. at
5)—and provides no assertion that there is a circuit split
as to RICO law.
CPAY’s primary argument below was that RICO
causation requires proof of individual reliance. Applying
this Court’s decision in Bridge v. Phoenix Bond &
Indemnity Co., 553 U.S. 639 (2008), the Eighth Circuit
rejected that argument. (Pet. App’x at 8-9.) Other circuit
decisions are in accord. See, e.g., Torres v. S.G.E. Mgmt.,
LLC, 838 F.3d 629, 639 (5th Cir. 2016); CGC Holding Co.
v. Broad & Cassel, 773 F.3d 1076, 1090 (10th Cir. 2014);

14
U.S. Foodservice, 729 F.3d at 121-22. CPAY does not claim
a circuit split on that issue, or a circuit split related to
the application of Rule 23 to Nebraska-law fraud claims.
Thus, CPAY’s “circuit split” argument only pertains to
one claim in this case.
There is also no circuit split regarding the breach-ofcontract claim. Every circuit engages in the same analysis
under Rule 23: evaluating the contracts to determine
whether they are materially similar or have differences
substantial enough that each individual contract must
be reviewed to adjudicate the claims. See, e.g., Wallace
B. Roderick Revocable Living Tr. v. XTO Energy, Inc.,
725 F.3d 1213, 1218 (10th Cir. 2013) (commonality not
established where it was unclear that defendant had
same duty to all potential class members); Sacred Heart
Health Sys., Inc. v. Humana Military Healthcare Servs.,
Inc., 601 F.3d 1159, 1172 (11th Cir. 2010) (stating that
form contracts “best facilitate[] class treatment,” while
“common questions rarely will predominate if the relevant
terms vary in substance among the contracts”); Broussard
v. Meineke Disc. Muffler Shops, Inc., 155 F.3d 331, 340 (4th
Cir. 1998) (no commonality where potential class members
signed contracts with “materially different contract
language, [and] the actual contractual undertaking of
each was subject to several critical variables”); Sprague
v. Gen. Motors Corp., 133 F.3d 388, 398 (6th Cir. 1998)
(class claims lacked commonality because of “myriad
variations” in contracts).
None of these cases, relied on by CPAY, held that a
class may not be certified where there is any variation in
the contracts. That point is clear from Sacred Heart, the
primary case upon which CPAY relies. In Sacred Heart,
the court noted that it previously affirmed certification

15
where it discerned “material similarity” in the relevant
contracts. Sacred Hear t, 601 F.3d at 1171 (citing
Allapattah Servs., Inc. v. Exxon Corp., 333 F.3d 1248,
1251 (11th Cir. 2003), aff’d sub nom. Exxon Mobil Corp.
v. Allapattah Servs., Inc., 545 U.S. 546 (2005)). In Sacred
Heart, there were six different categories of contracts. Id.
at 1171-72. That fact alone did not preclude certification,
and the court found sufficient similarity in the Group A
contracts to continue the analysis. Id. at 1172 (“So far,
so good.”). However, the analysis broke down when the
court found no homogeneity within Group B. Id. On the
whole, the Eleventh Circuit determined that the contracts
lacked sufficient similarity, “either as to the payment
provisions, or as to other terms like the termination and
waiver clauses that bear on Humana’s potential liability.”
Id. at 1171. Further, Sacred Heart involved the laws of
several states, id. at 1180, a non-issue in this case where
all contracts are governed by Nebraska law. (JA0639 at
§ 13.2.)
The court in Sacred Heart—and the courts in the
other cases cited by CPAY—did precisely what the
Eighth Circuit did here. They analyzed the contracts
to see whether the variations were substantial enough
to preclude class treatment. In this case, the Eighth
Circuit analyzed that question and determined that the
contracts were sufficiently similar, when considered in the
context of the Plaintiffs’ theories of liability. (Pet. App’x
at 6.) The court recognized differences in the negotiated
pricing. However, it also recognized that terms common
to all contracts precluded the raising of fees, and that
CPAY’s statements to merchants regarding changes to
billing were “nearly identical.” (Id.) Further, the court
determined that any pricing differences would affect only
damages, and the need to assess individual damages will

16
rarely defeat class certification. (Id. at 6-7.) As this Court
held in Tyson Foods, Inc. v. Bouapheakeo, 557 U.S. 442
(2016):
When “one or more of the central issues in
the action are common to the class and can
be said to predominate, the action may be
considered proper under Rule 23(b)(3) even
though other important matters will have to
be tried separately, such as damages or some
affirmative defenses peculiar to some individual
class members.”
Id. at 453-54 (quoting 7AA C. Wright, A. Miller, & M.
Kane, Fed. Prac. & Proc. § 1778, pp. 123-24 (3d ed. 2005)).
See also Sacred Heart, 601 F.3d at 1179 (“Individualized
damages issues are of course least likely to defeat
predominance where damages can be computed according
to some formula, statistical analysis, or other easy or
essentially mechanical methods.”) (quotations omitted).
Thus, the Eighth Circuit did not ignore the differences
in the contracts, as CPAY suggests. Rather, the court
analyzed the similarities and differences material to
Plaintiffs’ legal theories, and then determined that
common issues predominated due to the uniformity
of the terms and conditions—i.e., the provisions upon
which the Plaintiffs have based their case. (Pet. App’x at
6-7.) This analysis does not represent a departure from
any other circuit’s analysis. In all of these cases, the
courts are analyzing the contracts to determine whether
they are materially similar, or whether “every one of
the contracts will have to be considered individually,
defeating commonality and predominance.” Naylor
Farms, Inc. v. Chaparral Energy, LLC, 923 F.3d 779,
795 (10th Cir. 2019).

17
CPAY’s suggestion that it lost on appeal because of
the accident 5 of being in the Eighth Circuit is, therefore,
meritless. The Eighth Circuit does not treat Rule 23 issues
involving contracts differently from any other circuit. In
fact, it has rejected several such class actions in recent
years. See, e.g., Webb v. Exxon Mobil Corp., 856 F.3d 1150,
1156-57 (8th Cir. 2017) (affirming denial of certification
where claims were dependent on condition of individual
properties and contract laws of four states); Halvorson
v. Auto-Owners Ins. Co., 718 F.3d 773, 779-80 (8th Cir.
2013) (reversing class certification where liability would
be determined by whether each customer’s charges were
“usual and customary”); Avritt v. Reliastar Life Ins.
Co., 615 F.3d 1023, 1030 (8th Cir. 2010) (affirming denial
of certification where extrinsic evidence was critical to
plaintiffs’ breach-of-contract theories). Cf. Ebert v. Gen.
Mills, Inc., 823 F.3d 472, 481 (8th Cir. 2016) (decertifying
class in environmental contamination suit due to the
“disparate factual circumstances” among class members).
Meanwhile, every circuit cited by CPAY has permitted
class actions in contract cases where the contracts were
not 100% identical. See, e.g., Zehentbauer Fam. Land,
LP v. Chesapeake Expl., L.L.C., 935 F.3d 496, 505–06
(6th Cir. 2019) (lease contracts were sufficiently similar
to support certification, when evaluated in context of
plaintiffs’ remaining claims); Naylor Farms, 923 F.3d at
795 (certification proper where plaintiffs’ claims turned
on uniform clause in lease contracts); Allapattah Servs.,
333 F.3d at 1260-61 (common issues predominated, despite
5. “Accident” is an imperfect word, given that CPAY’s terms
and conditions dictate that any lawsuit must be filed in Douglas
County, Nebraska. (JA0639 at § 13.2.) But CPAY’s Petition
suggests that it was a victim of bad luck by landing in the Eighth
Circuit. (See Pet. at 13 (claiming that CPAY’s appeal “would have
come out differently” in any other circuit).)

18
individualized issues in affirmative defenses); Gunnells
v. Healthplan Servs., Inc., 348 F.3d 417, 428–29 (4th Cir.
2003) (certification proper where class all had unpaid
insurance claims, despite some contract variations); Grey
v. Hearst Communications, Inc., 444 Fed. App’x 698 (4th
Cir. Aug. 25, 2011) (unpublished) (affirming district court’s
certification of claim for breach of the duty of good faith
and fair dealing).
There is no fundamental difference in how the circuits
interpret Rule 23. It is a highly fact-specific analysis that
ultimately leads to a balancing of all issues in a particular
case, to determine whether common issues predominate.
See Fed. R. Civ. P. 23(b)(3); Wang v. Chinese Daily News,
Inc., 737 F.3d 538, 545-46 (9th Cir. 2013) (“The main
concern of the predominance inquiry under Rule 23(b)(3)
is the balance between individual and common issues.”).
In this case, the Eighth Circuit determined that common
issues predominated because of the uniformity in CPAY’s
terms and conditions. (Pet. App’x at 6-7.) Whether that
determination was right or wrong, it did not create a
circuit split. It was an application of one set of facts to the
general principles of Rule 23.
Because CPAY’s Petition relies heavily on the false
assertion of a circuit split, the Petition should be denied.
II. There are multiple additional reasons that this
case is not ideal for consideration by this Court,
including that CPAY’s Petition does not address
the entire case, there are no “material” contract
differences, and uniform law governs all contracts.
This Court should also deny the Petition because this
case would not position the Court to evaluate whether

19
common issues may predominate despite material
differences in class members’ individual contracts, as
CPAY erroneously claims. (Pet. at i.) Rather, this case is
a routine class action because the terms that matter to
the Plaintiffs’ theories are uniform.
There are several reasons why this case is not the
right case, even if the Court is inclined to address, at
some point, the Rule 23 certification of state-law contract
claims. Those reasons include:
• Plaintiffs primarily allege a centralized fraudulent
scheme under RICO that also constituted fraud
under Nebraska law, so their contract claims are
only one aspect of a larger case.
• The relevant contract provisions are uniform. CPAY
has failed to demonstrate in its Petition—as it failed
to demonstrate in the trial court or the Eighth
Circuit—how any alleged differences in individual
merchants’ contracts are material to any issue other
than damages.
• Because the relevant contract terms are uniform,
CPAY may present any defenses it may have
through summary judgment proceedings and at
trial.
• All contracts are all governed by Nebraska law. If
this Court reviews a contract case in the context of
Rule 23, it should select a case that implicates the
laws of several states, as that is an issue that courts
often wrestle with in addressing class certification.

20
A.

The focus at trial will be on CPAY’s common
scheme, not on the actions of any individual
Plaintiff.

CPAY’s myopic argument largely ignores Plaintiffs’
RICO and fraud claims. Plaintiffs allege a common,
centralized scheme to defraud them, in violation of the
RICO Act. The sole question presented focuses on what
CPAY describes as “materially different contractual
rights and obligations between the defendant and each
class member.” (Pet. at i.) That question does not address
the RICO and fraud claims.
Plaintiffs’ RICO claim places the focus on CPAY’s
conduct, not on the conduct of any individual Plaintiff. See
Bridge, 553 U.S. at 647 (“The gravamen of the offense is
the scheme to defraud.”); see also Reyes v. Netdeposit,
LLC, 802 F.3d 469, 487 (3d Cir. 2015) (stating that “a
properly supported RICO allegation will often contain
common issues because … a RICO allegation is informed
by the defendant’s conduct as to all class members and
any resulting injuries common to all class members”
(quotations and alterations omitted)). The same analysis
that applies to Plaintiffs’ RICO claim also applies to
Plaintiffs’ claims under Nebraska law for fraudulent
concealment, and to the claim for breach of contract based
on the duty of good faith and fair dealing.6
6. The fraudulent concealment claim requires proof
that Plaintiffs acted or refrained from acting in response to
a concealment and sustained damages as a result. Knights of
Columbus Council 3152 v. KFS BD, Inc., 791 N.W.2d 317, 334
(Neb. 2010). Here, the Plaintiffs paid fees due to CPAY’s failure
to disclose information about what they were paying. See, e.g.,

21
The evidence shows that CPAY engaged in an
intentional overbilling scheme that systematically added
illegitimate charges to more than 200,000 merchant
accounts. (Pet. App’x at 15-16.) As noted above, CPAY
overbilled merchants in two ways: (1) by imposing rate
increases without contractual authority or any other
legitimate basis; and (2) by charging illegitimate fees,
accompanied by deceptive notices. The evidence shows that
all of these contested charges share the same pertinent
characteristics: they were planned and devised by the
Hyman brothers, often months in advance, (PL-ADD.10,
JA0768); they were not pre-approved by the bank, as
every contract required, (PL-ADD.14, JA0640 at § 13.20;
JA0530 at 33:5-22); they were disclosed with language
suggesting that there was a legitimate external reason
for them when there was not, (JA1899-1908); and, they
were charged without CPAY disclosing all material facts.
They even shared a common name: “pricing initiatives.”
(JA0558 at 143:1-144:19.) Merchants were not subjected to
these “pricing initiatives” until they had been on board
for four months. (JA0568 at 184:13-17.)
Plaintiffs will also use common proof to establish the
scope of the scheme. The evidence shows that CPAY raised
discount rates about twice a year, (JA1899-1902; JA0457,
CHG Holding, 773 F.3d at 1081; U.S. Foodservice, 729 F.3d at 120
(allowing for inference of reasonable reliance across a class). In
Nebraska, every contract includes a covenant of good faith and fair
dealing, which “requires that none of the parties to the contract
do anything which will injure the right of another party to receive
the benefit of the contract.” Spanish Oaks, Inc. v. Hy-Vee, Inc.,
655 N.W.2d 390, 400 (Neb. 2003). Here, CPAY uniformly violated
this covenant through its fraudulent scheme. Or, if CPAY proves
otherwise, that decision will also apply to the entire class.

22
¶ 92; JA0588 at 262:23-263:21), that each increase came
with a common statement to all affected merchants, and
that no increase was approved by the bank. (JA0530 at
33:5-22.) If CPAY has evidence that any particular rate
increase was legitimate—which it has not yet produced—
that evidence would apply to every merchant subjected to
that increase. The jury could then review the evidence and
determine which rate increases, if any, were legitimate,
and those findings would govern damages calculations.
The same goes for CPAY’s other fee increases—tiershifting, inventing the TSYS Network Fee (see PL-ADD.10,
JA0768), and imposing the PCI Noncompliance Fee with
no service in return. (JA0586 at 254:13-20.) Common
evidence—including documents from CPAY’s files
showing it trying to hide the fees, (PL-ADD.12, JA0780),
and testimony that increases were “business decisions,”
(JA0588 at 263:13-17; JA0581 at 237:3-13; JA0577-78 at
221:17-222:1)—will drive those determinations. Here, too,
the jury will be able to make categorical findings about
their legality based on common proof.
The common thread through all of CPAY’s actions was
its deception. CPAY did not disclose that it was simply
raising fees for its own profit, without the authorization
of the bank, and without providing anything in return.
Regarding the PCI Non-compliance Fee, CPAY did not
disclose that it was providing “no service” related to this
fee, or that it was pure profit for CPAY and not necessary
to recoup any costs. (JA0586 at 255:13-17; JA587 at 259:1014; JA0859.) Initially, CPAY attempted to hide the TSSNF
fee entirely. (PL-ADD.11-12, JA0779-80.) Even after it
added the fee to all new contracts, CPAY failed to tell
merchants that the fee was entirely made up and offered
nothing in return. (JA1906.)

23
Further, when CPAY raised existing rates, it sent
merchants identical notices that told them nothing. These
notices stayed essentially the same over time—claiming,
with no support, that fee increases were “in response to
recent modifications made by industry card brands to
interchange rates.” (JA1899-1902; PL-ADD.04, JA1763.)
These notices failed to disclose that CPAY had planned rate
increases in advance, or that the bank had not authorized
the increases as required by the merchants’ contracts.
(See id.) CPAY also has produced no evidence that any fee
increase correlated to an action by “industry card brands.”
Even if such information would constitute individualized
evidence—which it would not—courts should not assume
the existence of evidence not shown. See In re Foodservice,
729 F.3d at 122 (holding that “conjectural” claims of
individual reliance “do not undermine class cohesion and
thus cannot be said to predominate for purposes of Rule
23(b)(3)”) (quoting Amgen, Inc. v. Conn. Retirement Plans
& Trust Funds, 133 S. Ct. 1184, 1197 (2013)).
At trial, the jury will evaluate all of this evidence and
determine whether CPAY engaged in a scheme to defraud
these small businesses, such that CPAY violated the RICO
Act, committed fraud under Nebraska law, and/or violated
the covenant of good faith and fair dealing under Nebraska
law. All Plaintiffs’ liability claims will rise and fall with
common evidence. And again, the necessity to calculate
damages at an individualized level does not defeat class
certification. Tyson Foods, 557 U.S. 453-54.

24
B. Plaintiffs’ breach-of-contract claim also is
based on common evidence, and thus the
question presented does not apply here.
Even if the Court were inclined to address a case
that presented the scenario encompassed by the question
presented, this case is not that case. Again, the question
asks this Court to grant the Petition to address whether
a class may be certified despite “materially different
contractual rights and obligations between the defendant
and each class member.” (Pet. at i.) But CPAY has failed
to explain how CPAY’s or class members’ contractual
obligations materially differ from one class member to
the next.
The evidence as to Plaintiffs’ express breach-ofcontract claim is every bit as common as for the claims laid
out above. CPAY insists that the strength of its defense—
that it did nothing wrong—“necessarily depends on the
terms of the contracts CPAY signed with each merchant.”
(Pet. at 5.) But that argument ignores a critical point: The
contract terms that matter are uniform.
The key documents governing CPAY’s relationships
with merchants are the terms and conditions and
application that comprised the merchants’ original
contracts, plus the billing statements. The billing
statements and terms and conditions are plainly common.
The statements had a uniform notice of each increase that
barely changed over time, (see, e.g., JA1899-1908; PLADD.04, JA1763), and CPAY admits that the terms and
conditions did not materially change throughout the class
period. (JA0543 at 83:22-84:5.) As for the applications,
CPAY never identifies any differences that matter to

25
any issue other than damages. CPAY’s expert “did not
perform any legal analysis with regard to the distinctions
across the various versions” of the application. (CPAYADD.46.)7 Because CPAY failed to identify any relevant
distinctions in the individual contracts, certification was
proper. See U.S. Foodservice, 729 F.3d at 124-25 (rejecting
argument that vendors’ contract presented individualized
issues where record contained “no evidence of any USF
customer’s contract negotiations or individualized conduct
in performing pursuant to the contract”).
While the RICO, fraud, and duty of good faith claims
focus on CPAY’s deception, the express breach claim
focuses on CPAY’s breach of specific and uniform contract
terms. Every class member’s contract included boilerplate
requirements that the “BANK must pre-approve all
FEES,” and that “the AGREEMENT may not be amended
without BANK’s express written consent.” (PL-ADD.14,
JA0640 at § 13.20); see also Pet. App’x at 6 (acknowledging
“[t]he relevant contract term was uniform”).) Further,
“[t]he FEES may be amended by BANK on thirty (30)
days written notice to MERCHANT unless provided
otherwise herein.” (JA0635 at § 3.5). All class members
claim that CPAY breached these terms by (a) imposing
new fees not pre-approved by FNBO and (b) amending
the agreed-upon fees without FNBO’s written consent.
(Pet. App’x at 6 (stating that “all Plaintiffs allege failure
to get bank preauthorization”)).
That uniformity places this case in stark contrast
to the decisions cited by CPAY, all of which involved
7. CPAY-ADD refers to the Addendum filed by CPAY in the
Eighth Circuit.

26
contract terms that varied widely. For instance, in
Sacred Heart, the Eleventh Circuit held that differences
in the most material contract terms were overwhelming.
Sacred Heart, 601 F.3d at 1176. The court reversed
certification due, in part, to the district court’s error in
“overlook[ing] the substantial variation in the contracts
and the corresponding rights and duties they provide the
plaintiffs.” Id. See also Sprague, 133 F.3d at 398 (breach
of contract action could not be certified given “myriad
variations” in non-uniform oral and written promises
regarding retirement benefits) 8; Broussard, 155 F.3d
at 340 (holding that key contractual provision varied
widely, and thus “the breach of contract action that is the
cornerstone of plaintiffs’ case raises numerous uncommon
questions”); Wallace B. Roderick, 725 F.3d at 1218 (10th
Cir. 2013) (noting that the plaintiff failed to prove that key
contract term existed “in every class member’s lease”).
Here, some merchants bargained for specific rates per
transaction, but Plaintiffs’ liability theories have nothing
to do with those initial discussions or rates. The merchants’
individual rates only impact the damages inquiry. As this
Court recently held in Tyson, and as the Eleventh Circuit
wrote in Sacred Heart, individualized damages inquiries
usually will not defeat class certification. Tyson, 557 U.S.
at 453-54; Sacred Heart, 601 F.3d at 1179 (noting that
damages are unlikely to defeat predominance “where
damages can be computed according to some formula,
statistical analysis, or other easy or essentially mechanical
8. In cer tify ing a contract class, U.S. Foodser vice
distinguished Sprague as “decertifying [a] class of early retirees
in [an] ERISA case where ‘side deals’ contained myriad variations
as to what each retiree was promised.” U.S. Foodservice, 729 F.3d
at 124.

27
methods”). That is precisely the situation here. The
measure of damages is straightforward—the merchants’
price increases due to CPAY’s fraudulent scheme—and
damages can be calculated using CPAY’s own records.
(JA0793-97.)
The certified class is defined to include any merchant
subject to any of the challenged fees. (Pet. App’x at
56.) So, if the jury determines that CPAY engaged in a
fraudulent scheme or breached the terms and conditions
of its merchant contracts, then the only remaining issue
will be the calculation of damages, as the lower courts
recognized. (Pet. App’x at 6-7, 32-33.)
CPAY’s Central Station computer system stores
data regarding the fee information for each merchant
from the start of their agreement to the present (or until
termination of their agreements with CPAY). (JA0793
(Olsen Report, ¶ 14, citing Chang Dep. at 93:11-19,
159:9-23, 164:5-169:23, 172:1-24, 176:7-177:9 9).) Using that
data, Mr. Olsen developed a program to determine the
amount of credit card rate increases, as well as the PCI
Noncompliance and TSSNF Fees charged by CPAY. (JA at
798-800 (Olsen Report, ¶¶ 22-33).) Using the spreadsheets
produced in discovery, Mr. Olsen could calculate all
damages from CPAY’s raising of fees and collection of the
PCI Noncompliance and TSSNF Fees, to the penny. (Id.)
He did the same for the named Plaintiffs. (Id. at 800-01
(Olsen Report, ¶¶ 34-37).)
CPAY asserts that the damages inquiry defeats
predominance, claiming that the Eighth Circuit’s opinion
9. JA0545, JA0562-66.

28
necessitates a review of every contract. (See Pet. at 18
(citing Pet. App’x at 7) (stating “that some contracts
authorize a ‘PCI Noncompliance Fee’ or a ‘TSSNF Fee’
does not defeat predominance”).) But the Eighth Circuit
never wrote that every contract needed to be reviewed.
Plaintiffs contend that the PCI Noncompliance Fee
and TSSNF Fee are part of CPAY’s fraudulent scheme,
and violate the covenant of good faith and fair dealing,
regardless of whether they were disclosed in a merchant’s
application. CPAY created the PCI Noncompliance Fee
for pure profit in exchange for no services. (See JA0586
at 254:13-20, JA0587 at 259:10-19, JA0827.) Zach Hyman
invented TSSNF fee out of nothing, and then tried to hide
it from merchants. (PL-ADD.10-12, JA0768, JA0779-80.)
On the question of whether these fees were legitimate,
the class’s claims will rise and fall together.10
The PCI Noncompliance Fee has been standard
on the merchants’ applications since June 2011. (See
JA0585 at 253:13-23; JA1773.) Beginning in April 2016,
CPAY disclosed the TSSNF Fee in the small print of
contracts with new merchants. (JA1387; JA1906.) If
necessary, Plaintiffs’ expert can easily determine which
merchants had disclosure of these fees in their contracts
by reviewing CPAY’s database to determine the start date
for a particular merchant. (See JA545 at 93:11-19 (stating
that Central Station records all fee information from the
inception of each merchant’s agreement).) Thus, there is
no need to review every contract.
10. Plaintiffs do not assert that any merchant was improperly
charged because it was compliant with PCI standards. Their only
argument is that the fee is fraudulent and, therefore, void ab initio.

29
This case, therefore, does not present any questions
about the impact of “material” deviations in every contract.
C.

CPAY has failed to identify any contract
“defenses” that would not apply to the entire
class if viable.

This Court should also reject the assertion that
certiorari is needed so that CPAY will have the opportunity
to present its contract defenses. (Pet. at i.) Though CPAY
makes this point in the buildup to its question presented,
CPAY fails to explain how it would be precluded from
raising any defense through summary judgment or trial.
It also fails to explain which “individualized” defenses
that it supposedly possesses. (See id.)
Nothing prevents CPAY from asserting its “principal
defense to these claims,” which, CPAY claims, is “that it
had every right to bill its merchant customers through
the practices at issue.” (Id. at 5.) CPAY already sought
summary judgment on the contract claims, as to the
named Plaintiffs. (Pet. App’x at 43-50). Notably, this
argument did not focus on any issues unique to the named
Plaintiffs. (See id.) There is an October 12 deadline for
summary judgment motions on the merits of the case, and
Plaintiffs understand that CPAY plans to seek summary
judgment as to the entire class. Of course, CPAY will also
have the opportunity to defend its actions at trial. The fact
that CPAY claims to have defenses based on individual
contracts is meaningless when it has failed to support that
claim with evidence. U.S. Foodservice, 729 F.3d at 124-25.
CPAY has made no showing that it will be precluded from
raising any particular defense if certiorari is denied.

30
The express breach claim applies to fees raised
without contractual authorization or fees not disclosed at
all. Again, every class member’s contract was governed
by the same set of terms and conditions, which did not
materially change during the class period. (JA0543 at
83:22-84:5.) Thus, while each class member agreed to
pay different amounts to CPAY for its services, the
parties’ contractual rights and obligations were governed
by an identical set of rules. CPAY begrudgingly admits
this critical detail. (See Pet. at 6 (noting that terms
and conditions were “standardized”).) Therefore, any
defenses that CPAY believes it has would apply uniformly
throughout the class.
D.

This Court should not accept a contract case
in the Rule 23 context where, as here, all
contracts are governed by one state’s law.

Finally, even if the Court is inclined to—at some
point—address a contract-based class case, this case
is not ideal for that inquiry because it is missing a key
component. While many class cases involving contracts
present the issue of how to synchronize multiple states’
laws, in this case all contracts are governed by Nebraska
law. (JA0639 at § 13.2.)
As noted above, one reason the Sacred Heart court
rejected certification was that the contracts involved the
laws of six states. Sacred Heart, 601 F.3d at 1180. However,
the fact that a class case involves contracts governed by
the laws of several states does not necessarily defeat
certification. See, e.g., Johnson v. Nextel Commc’ns Inc.,
780 F.3d 128, 147 (2d Cir. 2015) (“We have held that the
fact that contract terms must be interpreted according

31
to multiple different state laws does not necessarily
make individual issues predominate over common ones,
because state contract laws generally define breach
consistently.”) (citing U.S. Foodservice, 729 F.3d at 127);
Klay v. Humana, Inc., 382 F.3d 1241, 1262 (11th Cir. 2004)
(“[I]f the applicable state laws can be sorted into a small
number of groups, each containing materially identical
legal standards, then certification of subclasses embracing
each of the dominant legal standards can be appropriate.”)
(citing Krell v. Prudential Ins. Co. of Am., 148 F.3d 283,
315 (3d Cir. 1998); Walsh v. Ford Motor Co., 807 F.2d 1000,
1017 (D.C. Cir.1986); cf. In re Am. Med. Sys., 75 F.3d 1069,
1085 (6th Cir. 1996) (noting that too many variations in
state laws make the district judge’s task impossible).
Contract-based claims are heavily fact-specific and
are governed by state law, so that is presumably why
this Court rarely grants certiorari in such cases. But if
the Court is inclined, at some point, to accept a contract
case in the Rule 23 context, the ideal case would have
contracts governed by the laws of multiple states. Only
then could this Court provide guidance on how the lower
courts should handle that situation. All of the contracts
in this case are governed by the same law, so that is yet
another reason to deny CPAY’s Petition.
III. CPAY’s attacks on the lower-court judges who have
decided this case are irrelevant to the sole question
presented.
This Court should also reject CPAY’s efforts to obtain
the Court’s review by attacking the federal judges who
previously have decided this case. That the district court
made an error or two in a 35-page order that covered three

32
separate motions does not indicate that Judge Bataillon
failed to give the matter a rigorous review. Meanwhile,
it is unclear what exactly Judge Benton did wrong in his
decision for the Eighth Circuit, other than ruling against
CPAY’s interests. He is accused of “fact-finding,” but any
decision reviewing a certified class will necessarily have to
review the facts that were presented to the district court.
See, e.g., Sacred Heart, 601 F.3d at 1171-76 (reviewing
relevant contracts in detail).
Regardless of how this Court rates the quality of the
lower courts’ analysis, one thing is certain: The question
presented does not address whether the district court
engaged in a rigorous analysis. Per this Court’s rules,
“[o]nly the questions set out in the petition, or fairly
included therein, will be considered by the Court.” U.S.
Sup. Ct. R. 14. CPAY’s Petition, ignoring the hyperbole that
precedes the actual question presented, asks: “Whether
a class may be certified under Rule 23 of the Federal
Rules of Civil Procedure when the class claims turn on
materially different contractual rights and obligations
between the defendant and each class member.” (Pet. at i.)
As laid out above, the premise underlying this “question”
is false. Plaintiffs’ contractual claims are based on uniform
terms and conditions, not “materially different contractual
rights.” That point aside, CPAY did not raise any issues
regarding the depth of the lower courts’ analysis.
Nor could such an issue be fairly included in the
question that CPAY presented. The question presented
focuses entirely on the alleged circuit split. It does not
raise any question about the depth of the analysis. The
question merely assumes a set of facts and asks the Court
to determine whether a class should be certified under
those alleged circumstances. Further, even if the depth

33
of the lower courts’ analysis could be considered within
the question presented, it does not represent an issue
of general importance. The question of whether Judge
Bataillon and Judge Benton included sufficient analysis
in their decisions bears on this case, and this case only.
CPAY appears to be attacking the lower-court
judges to try to create the impression that something
unusual happened in this case. It did not. Plaintiffs have
alleged a cohesive scheme that deprived small-business
merchants of funds in small increments that added up to
well over $100 million. CPAY’s conduct was uniform, and
CPAY’s terms and conditions were uniform. This case is a
quintessential class action, and both lower courts properly
recognized it as such.
CONCLUSION
For all of the foregoing reasons, this Court should
deny the Petition for a Writ of Certiorari.
Respectfully submitted,
E. A dam Webb
T yler W. Hudson
Counsel of Record
Matthew C. Klase
Webb, Klase & Lemond, LLC Eric D. Barton
1900 The Exchange, S.E.,
A dam S. Davis
Melody R. Dickson
Suite 480
Wagstaff & Cartmell, LLP
Atlanta, GA 30339
4740 Grand Avenue, Suite 300
(770) 444-9325
Kansas City, MO 64112
(816) 701-1100
thudson@wcllp.com
Counsel for Respondents

